No.

ORIGINAL
Supreme Court, U.S.
FILED

NOV 0 7 2018
IN THE
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Joseph Shane Terry

— PETITIONER

(Your Name)

vs.
United States of America

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals - Eleventh District

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Joseph Terry

(Your Name)
#30094-001

PO Box 150160

(Address)
Atlanta. GA

30315

(City, State, Zip Code)

(Phone Number)

QUESTIONS PRESENTED
Is an attorney ineffective and engaging in a conflict of interest by making
negative statements about his client to the court, informing the court that
his Defendant was trying to effect an "abuse of process" by withdrawing his plea
agreement, then proceeding to testify as a witness against his own client to
obstruct the withdraw of said plea.
Does denying simple discovery of facts unavailable in existing court proceedings
but directl^lyelated to later testimony obstruct the right to due process.

Is an attorney ineffective for failing to report a direct conflict of
interest with his client.

Can a claim of ineffective assistance of counsel be waived by plea colloquy.

Is counsel ineffective by failing to appear at sentencing, therefore
causing a "stand-by" counsel to represent without having knowledge of the facts
related to sentencing.

Is counsel ineffective by arguing the incorrect standard of law.

Was counsel ineffective in not properly arguing that 18 U.S.C. §3287
correctly applies to war related issues and fraud against the United States.

LIST OF PARTIES

M All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
United States District Court Case No. 5:12-CR-0455-RDP-TMP
United States District Judge David Proctor Presiding
United States District Court Case No. 5:16-CV-08156
United States District Judge David Proctor Presiding
United States Court of Appeals for the Eleventh District in review of the
above cases.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
Eleventh Circuit request for Certificate of Appeal

APPENDIX B
Eleventh Circuit request for Recondideration

APPENDIX C
The Eleventh Circuit’s Denial of Consideration

APPENDIX D
News report showing R. Tuten's false statements to Court (2020)

APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Massaro v. United States

Supreme Court 2003

iii

Levy v. United States

2nd Circuit 1994

iii

Zepp v. Virgin Islands

3rd Circuit 1984

iii

Bracey v. Gramley

Supreme Court

iv

United States v. Matlock

Supreme Court

v

STATUTES AND RULES
18 U.S.C 3287 Wartime Suspensions of limitations
Right to Effective Counsel
Fourth Amendmant right to be free of illegal search and seizure

OTHER

STATEMENT OF THE CASE
In 2012, the Defendant was indicted on multiple counts including; false
statement to the Small Business Administration, Bank Fraud, and Wire Fraud.
The Defendant on recommendation hired the firm of Froshin and Brunson out
of Birmingham, .^Alabama.

Upon hiring this firm, Judge Proctor instigated a set

of "special rules" via email to myself and the attorneys, that outlined allowed
conduct at the hearings.

Mr. Terry informed Brunson that he believed it might be

in his best interest to seek other counsel, believing that former conflict with
USA David Estes would affect and color his case.

Mr. Terry was assured that this

would indeed not affect the case nor representation.
The first hearing was for dismissal of the charges based on the Statute of
Limitations, and judgement on a "warrantless search" that has been conducted on
Mr. Terry's home to confiscate hard drives and electronic equipment.

During

said search while Mr. Terry was not home, Mr. Terry's neighbors called to inform
him what was going on, at which point he asked the neighbors to take pictures and
speak to the agents.

The agents were unable to enter the property easily due to

a barracade put up by Mr. Terry after the theft of property only days before.
There is a report at the Madison. County Sheriff's Office.

The agents had to hire

a tow. truck to pull equipment out of the way enough to gain entry, all of which
there are pictures of,.as well as testimony and affidavits from the neighbors,
and Mr. Terry's brother that had lived with him for years previously.

Unknown

to Mr. Terry, his counsel told these witnesses there was no need of them the night
before the hearing.

During this hearing, Mr. Brunson refused to allow the evidence

from the search before the court even though it directly relates to "common
authority" to whether or not this was a legal search, and argued the incorrect
standard of law concerning "warrantless searches".
Also Mr. Terry's protections against unfair prosecution on untimely issues
were removed with 18 U.S.C. §3287, Wartime Suspension of Limitations.

Mr. Bruson

failed again by trying to argue when the "War / Authorized Use of Military'Force"
began.. This act clearly applies to War related fraud that is also against the
United States.

Mr.,Terry has never had any contracting that had anything to do

with prosecuting a war in the Middle East, nor concerning terminal equipment.destined
Mr. Terry was accused of taking work away from a "imaginary other

for a war zone.
8(a) contractor','.

Mr. Terry has been unfairly penalized and his right to effective

counsel depriving him of due process.
After the failings of Froshin and Brunson, Mr. Terry terminated counsel and
sought representation with the attorney that the Court had given as representation
at the bond hearing.

Mr. Terry paid Mr. Tuten up front full cost with the assurance

that he would defend Mr. Terry at trial.

Mr. Terry hired his partner, Attorney

Riggs as well, paid in advance in full. :Mohthsrlater Mr. Terry under heavy medication
signed a plea agreement.

As Mr. Terry began to remove himself from medication,

he realized that his honor required him to file to withdraw the plea agreement
and to present his case before a jury.

Mr. Terry understanding that Mr. Tuten

never had intention of representing him fairly, filed to remove his representation
for irreconcilable differences without accusing of him of any misconduct.

Mr.

Tuten responded by telling the court (Mr. Terry much later found out) that his
client was obstructive and he felf Mr. Terry was trying to affect an "abuse of
process" by filing to remove the plea agreement.

He.also.told the court that he

had been working under an conflict of interest, which the court failed to disclose
to Mr. Terry.

Mr. Terry was then allowed to seek new counsel and proceed with

the plea withdrawl.

At the plea withdrawl: hearing almost six months later, Mr.

Tuten showed up voluntarily to give testimony.

Mr. Terry had brought in multiple

medical professionals to go through his medical records and give expert testimony
of the effect his medications would have on his competence,

Mr. Tuten then came

forward to give sworn testimony that he had met with Mr. Terry every day and
knew better than the medical professionals that Mr. Terry was competent.

Judge

Proctor took Lawyer Tuten's testimony over the multiple expert witnesses and Mr.

lost his motion to withdraw the plea, and ultimately received a 6 year enhancement
on a 36 month plea due to Mr. Tuten's testimoney, as per Judge Proctor.
The District Court and Eleventh Circuit Appeals court ruled that Mr. Terry
had gived up his right to ineffective assistance of counsel for Mr. Tuten with his
plea colloquy, even for Mr. Tuten's conduct a year from the plea.
Nevertheless Mr. Terry knew if he could only present the evidence of Mr.
Tuten's false statements to the court the evidence would correct this injustice.
Even though Mr. Terry has clearly shown good cause and is asking for simple discovery
such as emails and phone records, the lower courts have denied this against saying
the plea waived my right to ineffective counsel against Mr. Tuten.
This is not the first time that Mr. Tuten has testified against his own clients
which was unknown to Mr. Terry, but in 2020 has been condemned by Circuit Judge
Pride Tompkins for lying once again to the courts (attached in appendices)..
Mr. Riggs did not appear at Mr. Terry's sentencing for some unknown reason.
The Stand-by attorney appointed to Mr. Terry asked Mr. Terry to sign, a time waiver
to be sentenced, which Mr. Terry refused because he wanted to have his paid and
chosen lawyer to represent him.

The court appointed did not try to help Mr. Terry

at sentencing, only telling the court that Mr. Terry had asked him to do "unethical
things".

(referring to evidence to court of Mr. Tuten's perjury).

Mr. Terry received a 108 month sentence on a 36 month plea agreement based
on his own attorney's testimony.

Mr. Terry has almost served all of this

sentence, and only wants for the truth and the law to prevail here.

REASONS FOR GRANTING THE PETITION
To resolve the Circuit split as to whether an attorney can testify against
his own client, determine if this is a conflict of interest and ineffective
representation.

To resolve if 18 U.S.C. §3287 applies only to war related or AUMF issues
with respect to fraud against the United States.

If the defendant is entitled to discovery under the "good cause" rule as
required to address false testimony by the defendant's attorney to obstruct
the defendant's defense.

To clarify the United State's standing on "common authority" to search a
home without a search warrant, and if the defendant received ineffective counsel
by arguing the wrong standing of law hs well as refusal to submit relevant
evidence to the court.

If the defendant's attorney simply does not show at sentencing, if a
stand-in attorney without vested interest in the defendant can properly
represent the defendant.

